<html>
<title> - CLOSING THE RACIAL AND GENDER WEALTH GAP THROUGH COMPENSATION EQUITY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  CLOSING THE RACIAL AND GENDER WEALTH
                    GAP THROUGH COMPENSATION EQUITY

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON DIVERSITY

                             AND INCLUSION

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2021

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 117-20
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-835 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
GREGORY W. MEEKS, New York           BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            STEVE STIVERS, Ohio
ED PERLMUTTER, Colorado              ANN WAGNER, Missouri
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
CINDY AXNE, Iowa                     TED BUDD, North Carolina
SEAN CASTEN, Illinois                DAVID KUSTOFF, Tennessee
AYANNA PRESSLEY, Massachusetts       TREY HOLLINGSWORTH, Indiana
RITCHIE TORRES, New York             ANTHONY GONZALEZ, Ohio
STEPHEN F. LYNCH, Massachusetts      JOHN ROSE, Tennessee
ALMA ADAMS, North Carolina           BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas
MADELEINE DEAN, Pennsylvania         WILLIAM TIMMONS, South Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   VAN TAYLOR, Texas
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
NIKEMA WILLIAMS, Georgia
JAKE AUCHINCLOSS, Massachusetts

                   Charla Ouertatani, Staff Director
                Subcommittee on Diversity and Inclusion

                     JOYCE BEATTY, Ohio, Chairwoman

AYANNA PRESSLEY, Massachusetts       ANN WAGNER, Missouri, Ranking 
STEPHEN F. LYNCH, Massachusetts          Member
RASHIDA TLAIB, Michigan              FRANK D. LUCAS, Oklahoma
MADELEINE DEAN, Pennsylvania         TED BUDD, North Carolina
SYLVIA GARCIA, Texas                 ANTHONY GONZALEZ, Ohio, Vice 
NIKEMA WILLIAMS, Georgia                 Ranking Member
JAKE AUCHINCLOSS, Massachusetts      JOHN ROSE, Tennessee
                                     LANCE GOODEN, Texas
                                     WILLIAM TIMMONS, South Carolina
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 29, 2021...............................................     1
Appendix:
    April 29, 2021...............................................    31

                               WITNESSES
                        Thursday, April 29, 2021

Chamberlain, Andrew, Chief Economist, Glassdoor..................     4
Dickens, Emily M., Chief of Staff, Head, Government Affairs, and 
  Corporate Secretary, Society for Human Resource Management 
  (SHRM).........................................................     6
Franklin-Davis, Dwana, Chief Executive Officer, Reboot 
  Representation.................................................    10
Raghu, Maya, Director of Workplace Equality, and Senior Counsel, 
  National Women's Law Center....................................     8

                                APPENDIX

Prepared statements:
    Chamberlain, Andrew..........................................    32
    Dickens, Emily M.............................................   157
    Franklin-Davis, Dwana........................................   164
    Raghu, Maya..................................................   169

              Additional Material Submitted for the Record

Beatty, Hon. Joyce:
    Written statement of the National Asian Pacific American 
      Women's Forum (NAPAWF).....................................   190
    Written statement of Public Citizen..........................   193
    UnidosUS report entitled, ``Closing the Latina Wealth Gap: 
      Building an Inclusive Economic Recovery After COVID........   199
Raghu, Maya:
    Written responses to questions for the record submitted by 
      Representative Sylvia Garcia and Representative Nikema 
      Williams...................................................   240

 
                  CLOSING THE RACIAL AND GENDER WEALTH
                    GAP THROUGH COMPENSATION EQUITY

                              ----------                              


                        Thursday, April 29, 2021

             U.S. House of Representatives,
                          Subcommittee on Diversity
                                     and Inclusion,
                           Committee on Financial Services,
                                                     Washington, DC
    The subcommittee met, pursuant to notice, at 12 p.m., via 
Webex, Hon. Joyce Beatty [chairwoman of the subcommittee] 
presiding.
    Members present: Representatives Beatty, Pressley, Lynch, 
Tlaib, Dean, Garcia of Texas, Auchincloss; Wagner, Lucas, 
Gonzalez of Ohio, and Timmons.
    Ex officio present: Representative McHenry.
    Chairwoman Beatty. The Subcommittee on Diversity and 
Inclusion will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time.
    Today's hearing is entitled, ``Closing the Racial and 
Gender Wealth Gap Through Compensation Equity.''
    I now recognize myself for 5 minutes to give an opening 
statement.
    Today's hearing will examine how discrimination based on 
gender, race, sexual orientation, and disability contributes to 
compensation and pay disparities in America.
    Despite having similar qualifications, data shows that 
women, people of color, members of the LGBTQ community, and 
individuals and persons with disabilities earn lower wages than 
their straight, White, and non-disabled and male counterparts. 
Our collective future must be one in which we eliminate 
discrimination against any American based on their gender, 
ethnicity, or sexual orientation.
    In President Biden's address to Congress last night, he 
didn't just offer platitudes. In the early days of his 
Administration, President Biden signed Executive Orders 
addressing racial equity that acknowledged the government's 
responsibility to affirm equity, civil rights, racial justice, 
and equal opportunity. Under the leadership of the Office of 
Management and Budget, the President launched an audit of 15 
Federal agencies to examine how their policies and practices 
may create or contribute to systemic racism. Like the Biden 
Administration, the Congress must do its part to root out 
policies and practices that perpetuate systemic racism and the 
gender and racial wealth gaps.
    Compensation inequity is discrimination, and injustice 
anywhere is a threat to justice everywhere. It exacerbates the 
gender and racial wealth gaps by hampering the ability of women 
and people of color to increase savings and build wealth 
through their homeownership rates. These disparities are 
highest for women of color, with Black and Latina women earning 
just $62 and $54, respectively, for each dollar earned by a 
similar qualified White male.
    Although we have seen marginal gains in the closure of the 
compensation gap in recent years, most women will not achieve 
pay equity in their lifetime, as it will take 50 years for 
White women, 350 years for Black women, and, yes, 432 years for 
Latina women to close the pay gap at the current pace.
    Since the onset of the pandemic, women have lost over 5 
million jobs, and these losses are disproportionately impacting 
working mothers, women in senior leadership roles, and Black 
women. Compensation gaps will only make it harder to recruit 
these important leaders back into the workforce in the years to 
come.
    Members of the LGBTQ community also face wage disparities, 
as gay and bisexual men earn 10 percent to 32 percent less than 
similarly qualified heterosexual men.
    In our country, all Americans should be valued and 
compensated equitably for their expertise and labor. 
Eliminating pay discrimination is long overdue. Thus, this 
hearing today is so important because I know the disparities in 
wealth creation in our economy, and we will hear those 
realities echoed in our witnesses' testimony.
    We must not just look to companies; we must look to 
government. Just 2 days ago, the soon-to-be Consumer Financial 
Protection Bureau (CFPB) Director said that he also is holding 
government accountable. And so, all companies should take 
proactive measures towards closing compensation gaps in their 
workforce by conducting pay equity audits and publicly 
disclosing their diversity data.
    I am hopeful that the full Financial Services Committee 
will take up legislation requiring the Federal financial 
regulatory agencies to conduct pay equity audits every 2 years, 
as well. And let me just tell you, there is study after study 
that will show you how many trillions of dollars we have lost 
in the GDP overall, due to the compensation gap, and 
potentially a loss of $2.7 trillion annually due to the Black 
wage gap alone.
    We also know how it has affected us, and thus that is why, 
in part, this subcommittee is so important, and we have had 
great witnesses. And today, I look forward to the testimonies 
of our witnesses. I have read them, and I am very pleased with 
the education and awareness that they are providing. Thank you.
    At this time, I will now yield 5 minutes to the ranking 
member of the subcommittee, my good friend and colleague, 
Congresswoman Ann Wagner from Missouri. The Chair now 
recognizes her for 5 minutes for an opening statement.
    Mrs. Wagner. Thank you, Madam Chairwoman.
    We all agree that every American, regardless of race or 
gender, should have access to economic opportunities, and I 
look forward to hearing from our witnesses to better understand 
how financial firms can expand access to high-paying jobs and 
also better implement their own policies that reduce the wage 
gap and enhance financial literacy.
    In order to address the wage gap, private-sector firms are 
proactively adjusting their culture to break down barriers and 
advance economic opportunities for women by advocating for pay 
equity, affordable child care, and paid sick and family leave. 
But there is still much to be done, particularly in addressing 
the wealth gap and the manager's gap and ensuring that the 
American workforce is more flexible and family-friendly so that 
mothers can thrive in their careers without facing unnecessary 
hurdles.
    As a working woman, I worked before, during, and after I 
had my children. I have always been a passionate defender of 
equal pay for equal work. In the past few years, we have seen a 
shift in the private sector to offer paid parental leave 
policies. These policies are particularly beneficial to women, 
whom we know are more likely to take on the primary caregiver 
role within a family.
    During the COVID-19 pandemic, women left the workforce at a 
rate 4 times that of men. When a woman leaves the workforce in 
order to raise children or care for family members, she not 
only diminishes her earning capacity at present, but when she 
does return to the workforce, she tends to make less than her 
male peers, who have advanced and grown their earning capacity 
during that same period of time. Offering paid parental leave 
enables those women to remain in the workforce and avoid 
lagging behind their peers, and it helps close the gender wage 
gap.
    Another factor that is correlated to the gender wage gap is 
the disparity between men and women who earn degrees in 
science, technology, engineering and math, the STEM fields. 
According to the Bureau of Labor Statistics, STEM occupations 
are projected to grow over 2 times faster than the total for 
all occupations in the next decade. We need these high-paying 
jobs in every industry, including financial services, and yet 
fewer women are receiving STEM degrees than men. Creating 
greater diversity in STEM education is critical not only for 
improving opportunities for women and minorities in finance but 
across all workforce sectors. It is the key to sustaining 
robust economic growth in the United States.
    In 2019, I requested a Government Accountability Office 
(GAO) study to assess how firms are supporting increased 
participation among women in STEM programs at the secondary, 
undergraduate, and graduate levels, and what best practices 
firms are using to recruit and retain women with STEM degrees. 
This study will help us continue to find solutions as we 
strengthen the U.S. financial services industry, and I look 
forward to reviewing it when it is published this year.
    Thank you, Madam Chairwoman, and I yield the remainder of 
my time to the ranking member of the Full Committee, Ranking 
Member McHenry.
    Chairwoman Beatty. Thank you to my colleague for yielding.
    And now, I will recognize Full Committee Ranking Member 
Patrick McHenry from North Carolina..
    Mr. McHenry. Thank you, Madam Chairwoman, and thank you for 
holding this hearing. I want to thank Ranking Member Wagner for 
yielding, as well.
    There is no doubt that disparities in compensation set our 
nation back, and the pandemic has only exacerbated these 
disparities. For example, there are two things that are on my 
mind here. We know that millions of women left the workforce 
last year. Disproportionately, child care is a family issue 
now. We should think of it as a family issue now. But 
unfortunately, we have seen during the pandemic that it is 
still largely falling on female workers to bear that load.
    We know that pre-COVID, the research shows that the U.S. 
economy would be $1.6 trillion larger if women entered the 
workforce and remained in the workforce at higher rates. That 
is what I am thinking about today. But we also have to think 
about the way that people are working and how they are working 
differently. One full-time job that will last as a career is 
not in the offing for most people, so people have part-time 
jobs or multiple jobs in order to make things work.
    I think one solution is my Gig Worker Equity Compensation 
Act, which expands the category of workers who can benefit from 
equity compensation in the fast-growing non-traditional 
workforce. So, I think we have to think through these 
solutions, and I am glad we are having these discussions.
    Thanks so much, Madam Chairwoman. I yield back.
    Chairwoman Beatty. Thank you, Mr. Ranking Member.
    Today, we welcome the testimony of our distinguished 
witnesses.
    First, we have Dr. Andrew Chamberlain, the chief economist 
of Glassdoor.
    Second, we have Emily Dickens, the chief of staff, head of 
government affairs, and corporate secretary for the Society of 
Human Resource Management.
    Third, we have Maya Raghu, the director of workplace 
equality, and senior counsel at the National Women's Law 
Center.
    And finally, we have Dwana Franklin-Davis, the chief 
executive officer of Reboot Representation.
    Witnesses are reminded that their oral testimony will be 
limited to 5 minutes. You should be able to see a timer on your 
screen that will indicate how much time you have left, and a 
chime will go off at the end of your time. I would ask that you 
be mindful of the timer, and quickly wrap up your testimony if 
you hear the chime, so that we can be respectful of both the 
witnesses' and the committee members' time. And without 
objection, your written statements will be made a part of the 
record.
    Dr. Chamberlain, you now are recognized for 5 minutes to 
give an oral presentation of your testimony.

  STATEMENT OF ANDREW CHAMBERLAIN, CHIEF ECONOMIST, GLASSDOOR

    Mr. Chamberlain. Chairwoman Beatty, Ranking Member Wagner, 
and members of the subcommittee, thank you for inviting me to 
testify this afternoon. I am here today on behalf of Glassdoor, 
where I am a chief economist. We are an online hiring platform 
that lets employees freely and anonymously review their 
employer and share pay information with others. Our core belief 
is that pay transparency is good for employees, good for 
employers, and it is good for the broader economy.
    I lead our company's not-for-profit think tank, and for 6 
years, I have been researching the topic we are here to talk 
about today, which is pay equity in the labor market by gender 
and race.
    Now, to set the stage, when I think about pay equity, I 
imagine looking across a large and diverse gathering of 
kindergarten kids from across America. I think of all the 
future possibilities before them. No reasonable person would 
look at those smiling faces and say, ``You will earn 86 cents 
on the dollar when you are an adult because you are an Hispanic 
child.'' Or, similarly, ``You will earn 71 cents on the dollar 
of what your friend will earn because you are a Black or 
African-American girl.''
    Saying that, of course, would be outrageously unfair, but 
something like that really happens between kindergarten and the 
adult workforce today that creates dramatic, surprising and, in 
my view, morally troubling patterns of pay inequity. As a 
researcher, I have seen these patterns in every data that I 
have seen in my career, from Federal surveys to company payroll 
data to data from our own online platform. I have come to 
believe it is our moral imperative to understand the causes of 
these gaps and to diminish them.
    How big are today's gender and racial pay gaps? Our most 
recent study looked at 425,000 U.S. employees. We found that 
men as a group earn about 21.4 percent higher pay than women. 
That amounts to about 79 cents per dollar earned by men. We 
call that the unadjusted pay gap.
    To understand what is causing that gap, we also calculate 
an adjusted pay gap, and it separately measures the impact of 
all of these factors, like education, experience, job location, 
and how much might be leftover due to bias in the workplace.
    It turns out that education and experience explains some of 
the gender pay gap, about 7.9 percent. But the big cause of the 
gender pay gap, by far, is occupational sorting. Women, for 
example, make up about one-fourth of the CEOs in the economy, 
but they make up more than 70 percent of retail cashiers. That 
type of gender-based job sorting in our research explains about 
56.5 percent of the gender pay gap, and that, in our view, is 
where solutions have to start.
    The most striking finding from my research is how pervasive 
the gender pay gap is. Even when we compare men and women in 
the most apples-to-apples way possible--same job, same 
employer, same age, same experience--the pay gap still hovers 
around 4.9 percent. So for a woman earning today's median pay 
of about $47,300 per year, that can amount to a pay cut of more 
than $70,000 over a 30-year career, with the same job, same 
company, and same background.
    These pay gaps are even bigger when we layer on race and 
ethnicity. The Glassdoor data show that Black or African-
American women earn just 71 cents on the dollar compared to 
White men as a comparison. Indigenous-American women earn just 
69 cents per dollar, and so on. Race and gender pay gaps are 
two sides of the economic coin in the workforce.
    Pay equity is the focus of this hearing, but I want to 
remind you there are other gaps in the workplace in employee 
culture that also affect our ability to solve compensation 
gaps. In new Glassdoor research we published today, we found 
that Black or African-American workers rate workplace diversity 
and inclusion nearly 8 percent lower than their White 
colleagues, a highly statistically significant gap, and this 
gap has actually worsened since 2019 despite rising corporate 
investment in diversity & inclusion (DNI). So solving racial 
pay gaps, in our view, requires addressing DNI issues in 
tandem.
    Making real progress on gender and racial pay gaps, in my 
view, requires something like a three-pronged approach: better 
transparency from employers; empowering better free 
occupational choice from workers; and other changes like better 
work flexibility, better child care and elder care, and more 
gender and race diversity among college majors.
    Pay equity is about fairness, but it also helps us build a 
more dynamic and prosperous U.S. economy. It clears the way for 
every American to make their best contribution to our 
prosperity, which is a win-win for workers and employers, and 
it can also be a pro-growth agenda for America.
    On behalf of Glassdoor, I would like to thank you for 
inviting me before the subcommittee today. We look forward to 
answering your questions. Thank you.
    [The prepared statement of Dr. Chamberlain can be found on 
page 32 of the appendix.]
    Chairwoman Beatty. Thank you so much, Dr. Chamberlain.
    Ms. Dickens, you are now recognized for 5 minutes to give 
an oral presentatiof on your testimony.

    STATEMENT OF EMILY M. DICKENS, CHIEF OF STAFF, HEAD OF 
GOVERNMENT AFFAIRS, AND CORPORATE SECRETARY, SOCIETY FOR HUMAN 
                   RESOURCE MANAGEMENT (SHRM)

    Ms. Dickens. Thank you, Chairwoman Beatty, Ranking Member 
Wagner, and distinguished members of the Subcommittee on 
Diversity and Inclusion. This is a great opportunity to testify 
on an important issue. I appear before you on behalf of 
300,000-plus Human Resources (HR) professionals and business 
executives who together impact the lives of more than 115 
million workers and their families. HR professionals design and 
implement compensation strategies. This work is so nuanced that 
many organizations have specialists within who are charged 
solely with developing the compensation philosophy. This is no 
easy task, and it is a facet of our work experience that most 
know little about.
    In my testimony, I will address total compensation, 
effective practices, and the importance of leveraging these 
practices to address inequities.
    When we are discussing compensation versus total 
compensation, the development of an organizational philosophy 
or the explanation for how the organization manages 
compensation is important because it explains the, ``why,'' 
behind employee pay and is based on organizational size, 
industry, and business objectives.
    Reviewing an organization's compensation philosophy 
periodically and updating it based on current business factors 
is also key. Most importantly, the organization must 
communicate this philosophy to employees and applicants. This 
level of transparency builds trust with employees and it 
provides awareness for job candidates, allowing them to make 
more informed decisions about whether the workplace and its 
compensation philosophy meets their expectations.
    We have been taught to focus on one number: base pay. It is 
the number that most people use to determine whether they are 
being fairly compensated. However, the full cost of 
compensation for an employee can include many variables. For 
the industries over which this subcommittee has oversight, 
those variables will likely be cash bonuses, commissions, and 
company stock awards. But for the majority of those represented 
in SHRM's membership--small and mid-sized businesses--those 
variables are likely to be a premium over their regular wages 
and incentives for working after regular hours or being on call 
or performing a lead function.
    Benefits are an important and often overlooked aspect of 
total compensation. SHRM's annual employee benefits survey 
includes hundreds of different offerings, with health care and 
retirement being the most popular. Other lesser-known benefits 
that will be crucial as we re-skill and up-skill the American 
workforce are student loan and tuition reimbursement, tuition 
assistance, and employer-sponsored scholarships. An employer 
may also provide subsidized child care benefits. The above-
mentioned examples equate to money that an employer contributes 
to the employee's overall compensation package.
    When we discuss effective compensation practices, one in 
five American workers feel their organization doesn't use fair 
criteria to make advancement and promotion decisions. To be 
fair and inclusive, employers must use consistent and 
actionable compensation practices. Examples include being 
transparent and clear in communications to all employees about 
pay decisions, providing hands-on compensation training to 
supervisors and hiring managers, educating employees about the 
organization's compensation package, and conducting 
comprehensive pay equity reviews, as well as examining 
promotion decisions for evidence of pay bias.
    HR professionals have a pivotal role in advising on 
systemic compensation equity changes. Other than the factors 
you will hear more about today, there are other things driving 
compensation inequity including recruitment, job descriptions, 
performance reviews, age and tenure, incentive pay, educational 
level, promotion opportunities, social demographic factors, and 
industry and career paths.
    Let us also not forget that employees make personal choices 
that impact their compensation, as well. The choice to step out 
of the workplace to go back to school, to start a family, the 
choice to follow a purpose, to work for a non-profit rather 
than a for-profit, the choice to have a work/life balance, all 
of these impact earning potential and are often overlooked as 
reasons why compensation differs from person to person.
    Human resource professionals must balance personal choices, 
employee expectations, and the needs of the business.
    Finally, the path toward equity requires a laser focus on 
educating more people on the compensation process. I am 
fortunate to have received this education, but I am keenly 
aware that most don't have this exposure. People cannot 
advocate for themselves without knowledge. The work of this 
subcommittee is a major step in alerting the public that they 
must actively seek information about total compensation if they 
are expected to use the resources that provide this 
information, and the workplace will be a key partner in 
educating employees about compensation.
    Thank you for the opportunity to present.
    [The prepared statement of Ms. Dickens can be found on page 
157 of the appendix.]
    Chairwoman Beatty. Thank you, Ms. Dickens.
    Ms. Raghu, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

 STATEMENT OF MAYA RAGHU, DIRECTOR OF WORKPLACE EQUALITY, AND 
          SENIOR COUNSEL, NATIONAL WOMEN'S LAW CENTER

    Ms. Raghu. Thank you, Chairwoman Beatty, Ranking Member 
Wagner, and members of the subcommittee. I am the director of 
workplace equality at the National Women's Law Center, where we 
fight for gender justice in the courts, in public policy, and 
in our society, working across the issues that are central to 
the lives of women and girls.
    Over the last year, the effects of the pandemic have fallen 
particularly hard on women and women of color. They are front-
line workers risking their lives for minimum wage and 
disproportionately bear devastating job losses, and they are 
shouldering the responsibility for caregiving as our jerry-
rigged caregiving infrastructure imploded this last year.
    Millions of women, but especially Black and Brown women, 
have long worked in essential but undervalued jobs that leave 
them struggling to make ends meet. Now, lost earnings due to 
the gender wage gap are intensifying the impact of the pandemic 
and robbing women and their families of a financial cushion 
just when they need it the most, and also to build wealth for 
future security.
    A key driver of gender and race wage gaps is women's 
overrepresentation in low-wage jobs in particular fields. 
Another is bias, whether overt or implicit, and stereotypes, 
including of caregivers, which can impact employer decisions at 
critical points: hiring; performance evaluations and 
promotions; and leadership development opportunities.
    Pay disparities, once created, are often hidden by the 
widespread pay secrecy policies and perpetuated and magnified 
over time by practices such as reliance on someone's prior 
salary. This affects compensation bonuses and retirement 
contributions.
    The pandemic has deepened existing challenges that 
individuals face that may widen wage gaps as they re-enter the 
workforce. A labor market where some jobs are going to 
permanently disappear, the loss of seniority, long periods of 
unemployment due to caregiving or other responsibilities, the 
need for paid leave, affordable care, greater flexibility, and 
new training and education all leave individuals with less 
bargaining power when they re-enter the workplace.
    On top of that, employers hold far more information than 
applicants and workers about pay. This information asymmetry 
can be a particular problem for women, people of color, and 
other groups, making it less likely to have extensive networks 
within some sectors for accessing that crucial information, and 
that is made worse by pay secrecy. Pay secrecy is bad for 
business. It leads to employee dissatisfaction and lower 
motivation and mistrust of management.
    Pay equity is an issue of increasing importance to 
shareholders and to younger generations who are potential 
employees and consumers. Transparency and equity are important 
corporate values. I want to highlight a few key promising 
practices and legislative trends to increase transparency and 
collective efforts.
    First, eliminate pay secrecy policies and provide salary 
ranges. Allowing employees to discuss pay without retaliation 
and providing more information to applicants about salary 
ranges for jobs reduces the information asymmetry and helps 
attract diverse talents, and numerous States have enacted 
legislation recently to address these issues.
    To significantly narrow the gender wage gap for employees 
working in the public sector, where pay secrecy rules are 
uncommon and salary ranges are often publicly disclosed, 
suggests the difference that transparency can make in closing 
wage gaps.
    Second, regularly conduct equal pay audits and compensation 
metrics. Activist shareholders are being increasingly 
successful in dragging businesses to conduct these analyses to 
help uncover and correct pay disparity, and to disclose wage 
gap metrics. But in the absence of Federal action, States, 
including California, Illinois, New Jersey, and others have 
enacted pay data reporting requirements. And in the U.K. and 
Europe, legislation requires analysis and reporting of pay 
information, and also public disclosure of gender wage gap 
metrics. And research shows that these mandates have helped 
drive employer pay analyses and proactive efforts to close wage 
gaps.
    Third, establish consistent, objective compensation-setting 
practices and reduce reliance on salary negotiation and prior 
salary. Allowing negotiation and an applicant's prior salary to 
drive compensation often can create gender and racial wage 
disparities that follow people from job to job. An objective, 
transparent compensation-setting practice can narrow wage 
disparities for women, people of color, and between current and 
new employees, and this can also help recruit and retain 
diverse talent.
    Finally, it is important to use and communicate objective, 
measureable metrics for performance evaluations. Objective 
performance evaluation criteria can help minimize the influence 
of unconscious bias at important points where there is 
discretion in decision-making, like promotions, which create 
and drive wage gaps. Sharing that evaluation criteria with 
employees helps increase trust of management and creates 
greater engagement and retention.
    These recommendations and others are discussed in greater 
detail in my written testimony, and I welcome your questions. 
Thank you.
    [The prepared statement of Ms. Raghu can be found on page 
169 of the appendix.]
    Chairwoman Beatty. Thank you so much, Ms. Raghu.
    And Ms. Franklin-Davis, you are now recognized for 5 
minutes to give an oral presentation of your testimony.

  STATEMENT OF DWANA FRANKLIN-DAVIS, CHIEF EXECUTIVE OFFICER, 
                     REBOOT REPRESENTATION

    Ms. Franklin-Davis. Chairwoman Beatty, Ranking Member 
Wagner, and distinguished members of the subcommittee, thank 
you for the opportunity to testify today. I am the chief 
executive officer of Reboot Representation Tech Coalition, a 
partnership of leading tech companies that have pooled funding 
and committed to a goal of doubling the number of Black, 
Latina, and Native American women graduating with computing 
Bachelor's degrees by 2025.
    I am going to speak about my background, including the 
organization I now lead, and then describe the issues my 
organization works on and how they will affect compensation 
equity.
    Prior to joining Reboot, I worked at a top financial 
services corporation, leading global technology teams, and I 
have a background in technology. My experience and expertise 
are through the lens of the tech sector. However, the concepts 
and principles can be applied across industries because, after 
all, tech transcends industry.
    Reboot Representation was launched alongside the report, 
``Rebooting Representation: Using CSR and Philanthropy to Close 
the Gender Gap in Tech,'' published in September 2018. The 
report's goal was to conduct research on how tech companies 
approach gender diversity using corporate philanthropy. The 
media had indicated that companies were, ``throwing money at 
this diversity problem,'' but the report gathered data on how 
much companies were actually spending on gender diversity. The 
research surveyed 32 leading tech companies representing over 
$500 billion in revenue and over $500 million in philanthropic 
giving, and found that they were only spending 5 percent 
towards gender diversity and tech, and less than .1 percent, 
which is $335,000 annually, focused on women and girls of 
color, specifically. It is projected that there will be 3.6 
million U.S. computing-related jobs opening by 2029, with only 
24 percent of these jobs that could be filled by U.S. computing 
Bachelor's degree recipients.
    These numbers alone should tell us that we need to do more 
to prepare individuals in this country for these high-paying 
jobs and to better position our companies to compete on the 
global stage.
    Studies also show that when high school students have 
access to take advanced placement computer science principles, 
they are 3 times more likely to major in computer science in 
college. College freshmen who declare a computer science major 
take a critical step toward receiving the second-highest paid 
college degree in the nation. States should continue to broaden 
participation in computer science by passing policies that make 
it a fundamental part of the K-12 education system. Today, only 
40 percent of States require high schools to teach computer 
science.
    I support the nine policies that many agree are necessary 
to make computer science fundamental to a State's K-12 
education system. To name two: create a plan for K-12 computer 
science; and establish dedicated computer science positions in 
State and local education agencies.
    Let's also remember that data is key. It is important that 
companies and organizations are collecting and disaggregating 
data, in addition to taking an intersectional approach, while 
creating targeted solutions to make an impact that needs to be 
woven into policy. To address the intersectional barriers that 
so many experience, we cannot treat racial groups as monoliths.
    But it is not enough to collect and disaggregate the data. 
We must also measure it. This measurement holds organizations 
accountable for the data they are collecting and reporting. In 
a corporation, it would not be acceptable for a business' year-
over-year return on investment to never increase. So why is 
this acceptable for the organization's DNI growth, when there 
have been countless studies that have proven that diverse teams 
are more productive and overall contribute to a higher return 
on investment (ROI)? Corporations must be inclusive through 
both diverse hiring methods and programs that support 
retention, which will lead to equitable outcomes and greater 
retention.
    An intentional intersectional approach is also necessary 
when creating policy. When programs and policies are informed 
and implemented for the least-represented, they also benefit 
the greater population because rising tides raise all ships.
    We are at a critical inflection point. Meaningful solutions 
are impossible without collective action. Bold leadership from 
the public and private sectors must step up, acknowledge the 
policies and practices that are contributing to inequity, and 
lead the change that is long overdue. Technology empowers, 
innovates, and adapts. It is the responsibility of all of us to 
ensure that our policies and companies do the same.
    Thank you for the opportunity to be here, and to speak to 
something that is near and dear to my heart.
    [The prepared statement of Ms. Franklin-Davis can be found 
on page 164 of the appendix.]
    Chairwoman Beatty. Thank you so much, Ms. Franklin-Davis, 
for your testimony.
    And thank you to all of the witnesses.
    I now recognize myself for 5 minutes for questions.
    Ms. Dickens and Ms. Raghu, since the onset of the COVID 
pandemic, a significant number of women have left the 
workforce. Many of you talked about that in your testimony. 
This is particularly true for working mothers, women, seniors, 
and also for Black women.
    How does compensation inequity contribute to workforce 
attrition, and how will it impact the recruitment of these 
leaders back into the workforce?
    And either one of you can start.
    Ms. Dickens. Thank you for the question, Chairwoman Beatty. 
It does impact recruitment. Right now, we are seeing a number 
of jobs open, but it is a hard time for us to be able to 
fulfill and to find the talent we need for those jobs. So right 
now, there is a lot of opportunity for people who have been out 
of the workforce, especially women, to enter the workforce in 
positions that are paying more than when they left because of 
demand. We are sitting in a period of demand right now.
    We are also sitting in a period for HR professionals where 
there is a lot of thoughtfulness into how we are diversifying 
our workplaces and making sure we are creating cultures that 
are more inclusive, where people are now considering 
organizations where they understand the culture is going to 
welcome them and they are going to succeed. I think we have an 
opportunity now with the thousands of HR professionals who are 
thinking differently of leading the culture and trying to 
create inclusive environments for more diverse employees and 
more opportunities.
    Chairwoman Beatty. Thank you. For purposes of time, I am 
going to ask for shorter answers.
    We will go to you, Ms. Raghu.
    Ms. Raghu. Thank you. I agree with Ms. Dickens in that I 
think this moment is an incredible opportunity for 
organizations to re-think workplaces. We recognize now, thanks 
to the pandemic, that women, and especially women of color, are 
increasingly the primary breadwinners and caregivers, and if 
workplaces want to attract and retain them, they are going to 
have to adjust their workplace expectations to that reality.
    The gender wage gap is one reason that many women went out 
of the labor force as families had to choose who could let go 
of their job in order to pick up the caregiving 
responsibilities when our infrastructure imploded.
    Chairwoman Beatty. Okay. Thank you.
    Mr. Chamberlain, companies who ignore pay disparities in 
their workforce face increased reputational risk. How has pay 
discrimination been reflected in the anecdotal information 
reported by some of the former employees on Glassdoor's 
platform?
    Mr. Chamberlain. We know from surveys of job seekers that 
employees pay a lot of attention to pay equity. It is one of 
the top factors they look at when choosing where to work. 
People say they will not work at places where there is either a 
real or a perceived inequity in pay, either by gender or race. 
So it definitely affects talent attraction, and there is 
abundant research showing that.
    One of the powerful things pay transparency can do is it 
can ignite public pressure on companies to do good for 
themselves, like they realize it is actually in their own 
business interest to handle these issues before they become a 
recruiting problem, because it affects their competitiveness 
and ability to get the talent they need on board.
    Chairwoman Beatty. Thank you.
    Ms. Franklin-Davis, we have noticed that women and people 
of color have made great strides in educational attainment, 
especially since the year 2000. Yet, their compensation 
inequities still persist, over, oftentimes, their male White 
counterparts with the exact same skills. Do you think that pay 
equity audits could be leveraged to address these disparities, 
or any other thing you would like to give us advice on?
    Ms. Franklin-Davis. Yes, I do think that audits can do a 
lot with regard to fixing the past. I also believe that pay 
scales should be transparent so someone going into an 
organization will be able to know where they should stand and 
not have to rely on their past pay or the history with regards 
to the opportunities they are applying for.
    Chairwoman Beatty. Thank you.
    And I have 20 seconds left, so this is a yes-or-no round 
robin to each of you. Do you think we are on the right track 
with this hearing, yes or no?
    Mr. Chamberlain. Yes.
    Ms. Dickens. Yes.
    Ms. Raghu. Yes.
    Ms. Franklin-Davis. Yes.
    Chairwoman Beatty. While that may have seemed like a light 
question, trust me, it will be invaluable to me as the Chair as 
we move forward to bring legislation around this.
    Thank you.
    And now, I have the distinct pleasure of yielding to my 
ranking member from the great State of Missouri, Ranking Member 
Wagner.
    Mrs. Wagner. Thank you. Thank you, Chairwoman Beatty.
    And I will register a, ``yes,'' too; how about that?
    Chairwoman Beatty. Thank you; so noted.
    Mrs. Wagner. Ms. Dickens, as the chairwoman stated at the 
beginning of her questioning, the pandemic and its lockdowns 
have resulted in millions of women leaving the workforce. Do 
you believe we will see a gap between men and women's job 
recovery post-pandemic? And how important is it to fully reopen 
our economy to ensure women continue to have economic 
opportunities?
    Ms. Dickens. Thank you for the question, Madam Ranking 
Member. Yes, there is going to be a gap in the short term. We 
will have to acknowledge that. This is then called the, ``she-
cession,'' as everyone alluded to today, that we have lost the 
greatest number of women in the workforce since around 1988. 
But I think we can address this quickly by getting more 
businesses to be open, and we are already seeing demand.
    We also have to understand that we have so much talent out 
there available that we will have to compete for that talent 
while creating workplaces with better cultures that have more 
flexibility, and understand that in the short term, we may need 
that worker to work remotely, or we may think about providing 
child care on-site services, or elderly care. And we also may 
need to do some upscaling and rescaling because of the new 
demands that we are seeing in the marketplace.
    Mrs. Wagner. So, flexibility is going to be very important, 
it sounds like, in the workplace.
    Ms. Dickens, in your testimony you mentioned SHRM's annual 
employee benefits survey of its 300,000-plus members. In this 
survey it showed that 34 percent of organizations offered paid 
maternity leave, and 30 percent offer paid paternity leave. In 
your experience, what sorts of factors impact the ability of an 
employer to offer paid parental leave?
    Ms. Dickens. Multiple factors, including the number of 
people you have who are able to work in the organization. We 
have a number of organizations that have a shortage of 
employees at the time. So, it is not always about the financial 
resources. It is, do we have the labor to continue to run the 
business as it runs today with more people out?
    Mrs. Wagner. And to that point, do you believe that the 
cost of losing and replacing an employee generally outweighs 
the cost of providing parental leave?
    Ms. Dickens. We always say that it costs to acquire a new 
staff person. So, it is important that we look at the culture, 
mission, and value of an organization for them to make a 
decision about the value of that employee to the overall bottom 
line.
    Mrs. Wagner. Ms. Franklin-Davis, what efforts are companies 
proactively taking to increase the number of women and 
minorities earning degrees in STEM programs? And what more can 
we do to increase that number?
    Ms. Franklin-Davis. Companies are taking multiple 
approaches with regard to how they are investing through their 
philanthropic giving, as well as what they are looking at on 
the corporate side of their house. Through the lens of legal 
representation, we are focused more on an untapped pathway at 
the higher end, recommending that early exposure to STEM is key 
for K-12, but also right now, as the pipeline really is 
shrinking, making sure that we have as many women of color 
entering into the STEM fields, specifically computing fields, 
and graduating with Bachelor's degrees is our goal and mission.
    Mrs. Wagner. Well, while education is important, there must 
also be readily available employment, as well. Ms. Franklin-
Davis, are there barriers in the current STEM industries which 
discourage females and minorities from entering the workforce, 
do you believe?
    Ms. Franklin-Davis. Yes.
    Mrs. Wagner. Please elaborate.
    Ms. Franklin-Davis. I only have 25 seconds, so I will talk 
through that the lack of representation is one of the major 
things. Also, the barrier with regards to equal access. So, 
exposure and opportunity. I could go on and on, but I will stop 
there.
    Mrs. Wagner. We are already out of time, and I would 
encourage you to submit your thoughts, please, any of you, in 
writing regarding that question for the record. I would 
appreciate it.
    Madam Chairwoman, I yield back.
    Chairwoman Beatty. Thank you very much.
    I now recognize the distinguished gentlelady from 
Massachusetts, Congresswoman Pressley.
    Ms. Pressley. Thank you to our distinguished and honorable 
Chair for convening this important hearing, and thank you to 
our esteemed witnesses.
    Madam Chairwoman, we know that the minimum wage in America 
is not a living wage. Even before this pandemic, families were 
on the brink: $7.25 an hour simply wasn't enough to make ends 
meet. There has been much discussion about this recently in 
Congress, and I vehemently support ending the Jim Crow 
filibuster so we can pass a $15.00-an-hour minimum wage.
    Today, I want to bring front and center the experiences, as 
has been elevated throughout this hearing, of women of color, 
but specifically women of color with disabilities. Not only do 
they face the pay gaps women of color experience, but layered 
on top of that are their experiences with disabilities. So, 
they face a jarring level of wage discrimination and compounded 
pay inequities.
    Moreover, in the United States, it is considered legal to 
pay workers far less, with reports indicating those with 
disabilities were paid a sub-minimum wage, earning an average 
of $3.34 to $3.40 per hour of work. The Federal minimum wage is 
already unlivable and inhumane. One in four people who call 
this nation home have a disability. It is absolutely 
unacceptable that we have sanctioned their financial 
marginalization.
    While the disability community is not a monolith, I raise 
the sub-minimum wage to highlight just one archaic and ableist 
practice. As of October, more than 1,200 employers held or 
applied for 14(c) certificates, allowing them to pay workers 
with disabilities sub-minimum wages.
    Ms. Raghu, allowing people with disabilities to be paid a 
sub-minimum wage is a failure of government and uplifts archaic 
and ableist judgments of productivity. How has Section 14(c) 
impacted people with disabilities, particularly Black women and 
other people of color with disabilities?
    Ms. Raghu. Thank you for the question, Congresswoman, but I 
will have to admit that I am not familiar with the details of 
that particular piece of legislation. What I will say is that I 
agree with you that the Federal minimum wage and different sub-
minimum wages in our Federal law have a profound impact on 
women of color and people with disabilities, and that has 
perpetuated wage gaps for decades.
    One of the issues that is affecting people with 
disabilities particularly during the pandemic is the ability to 
work and continue working while also receiving the care and 
assistance that they need, especially in their homes. So one 
thing I would say that we could do on a policy level is to 
ensure that people with disabilities are able to obtain pay 
equity and work for the minimum wage, like everyone else, but 
also to ensure that they have opportunities to receive the 
assistance and care they need in the context that makes sense 
for them and their families and their ability to work, and that 
will be part of a solution to them working towards their 
economic security.
    Ms. Pressley. Thank you.
    I am a proud co-sponsor of HR 2373, the Raise the Wage Act, 
which would eliminate those Section 14(c) certificates once and 
for all. My colleagues who know me well, know that I am very 
passionate about data, because I do believe that that which 
gets measured gets done, and the lack of complete, non-biased, 
disaggregated data about disability employment and wage gaps 
really is standing in the way of progress. While the Bureau of 
Labor Statistics and the American Community Survey and Current 
Population Survey Census data provides disability employment 
data, this data is not disaggregated by race. So without a 
doubt, this disaggregated data would be valuable in our 
continued pursuit of worker justice.
    Dr. Chamberlain, Glassdoor has served as a tool for job 
seekers and employers and collected key data on employment. 
Thank you for testifying today about your data on the gender 
and race pay gap. Dr. Chamberlain, what percentage of job 
postings on Glassdoor proactively include information about 
accessibility and accommodations for workers with disabilities?
    Mr. Chamberlain. Most job postings follow the normal 
guidelines for ADA compliance in saying that they do not 
discriminate. However, the real information many job seekers 
need, including disabled job seekers, is information about 
compensation and benefits. And while benefits are often listed 
on job postings, pay is extremely rare. Only 10 percent of job 
postings ever list pay openly, and so we try to fill in the 
gaps by estimating it ourselves.
    Ms. Pressley. Okay. And you mentioned in your testimony 
that in this recently launched feature for your company, 
diversity, equity, and inclusion practices are part of that. 
How are the experiences of workers with disabilities weighted 
in your assessment?
    Mr. Chamberlain. We finally have begun collecting 
information about employee disability, LGBTQ status, veteran 
status, and other features, and we are displaying all of the 
information on Glassdoor, all of the reviews, all of the 
salaries, by those characteristics. So, this lets people, on an 
intersectional basis, see exactly what they should be 
compensated for their particular situation, which is quite 
empowering. We have never had it before now.
    Ms. Pressley. Thank you.
    Chairwoman Beatty. Thank you so much.
    And now, I recognize the distinguished gentleman from 
Oklahoma, Congressman Lucas, for 5 minutes of questions.
    Mr. Lucas. Thank you, Madam Chairwoman.
    To meet our economic potential, I think we all agree that 
we need an inclusive and diverse workforce that draws on the 
full talent pool available in this country. In addition to my 
responsibilities on the Financial Services Committee, I also 
serve on the Science Committee, and we are working frantically 
there trying to address the shortage of STEM resources in the 
pipeline through the National Science Foundation and a variety 
of other efforts.
    So I would ask this question to Ms. Franklin-Davis. Could 
you speak on how improving the diverse representation in the 
STEM fields will enable increased representation and higher 
incomes for women across-the-board? Because sometimes, you do 
things that have amazing consequences down the road.
    Ms. Franklin-Davis. Increasing representation in all of the 
STEM fields--the STEM fields, especially when it pertains to 
Bachelor's degrees, are the highest-paid degrees for 
undergrads, with engineering being first, computer science 
being second, and math and the other sciences being third. So 
increasing access for students, especially students of color, 
to those high-paying wage jobs will not have any negative 
consequences with regard to future output but will increase 
representation in all of those fields and impact communities in 
which those people live.
    Mr. Lucas. Absolutely. And it has become quite clear to us 
on the Science Committee that not just our economic prosperity 
but our very economic survival in this increasingly complex 
world will depend on that stream of STEM people prepared to 
take up the challenge.
    Continuing with you, Ms. Franklin-Davis, in your testimony 
you outline nine policies that are very important to ensure 
that computer science is fundamental to a State's K-12 
education system. Could you further discuss the importance of 
implementing a clear certification pathway for computer science 
teachers and unique approaches across different States? What is 
working out there? What should we be looking at, for example, 
so we can make this progress?
    Ms. Franklin-Davis. Yes, thank you for that question. 
Access and opportunity I alluded to, and that is not equal 
across the country. So preparing our teachers with the tools 
that they need to teach the students is absolutely critical. 
The exposure and just having students be able to have it not 
count against them, knowing that it is now core and not an 
elective and not optional, should be something that we focus 
on, just like we do for history or math basics.
    As we are going to be looking forward to the future, as I 
made mention, technology transcends all industry. So having 
this fundamental and baseline in computer science is going to 
propel our nation's future in all areas of industry across-the-
board.
    Do you want me to go into what those nine were?
    Mr. Lucas. If you can touch on those in a few minutes, the 
things that you consider to be really important highlights in 
that group that we could consider and work with our folks back 
in our States.
    Ms. Franklin-Davis. Having a consistent State plan for 
kids, both making sure that access is equal for all students, 
and also being intentional. It is not enough just to have a 
program for computer science; we found out through programs 
that we fund and research, that you have to be specific with 
regard to women and girls, as well as underrepresented 
students. It is not enough to, ``if you build it, they will 
come.'' If you build it, generally only the boys will come. So, 
how are we being specific with regard to girls and girls of 
color?
    Defining what computer science means, and that rigorous 
standard that we want to set across-the-board, it should be 
equal across States as well as in urban and rural areas.
    Making sure that proper funding is allocated so that we can 
make sure that our science teachers and professionals have the 
opportunity to continue to learn and support.
    Being able to make sure that there is a clear certification 
pathway for our teachers, and creating an institution of higher 
education to offer computer science to pre-service teachers.
    In addition to that, making sure that we establish computer 
science positions in State and local education agencies so that 
continues to maintain and manage the high level of visibility 
that it needs.
    And then, when you go and look at the schools, requiring 
that all secondary schools offer computer science with 
appropriate implementation timelines, allowing those classes to 
satisfy core graduation requirements, as well as allowing them 
to satisfy the mission requirements for institutions of higher 
education.
    Mr. Lucas. Thank you very much.
    And thank you, Madam Chairwoman.
    Chairwoman Beatty. Thank you so much, Congressman Lucas.
    Now, I recognize the distinguished gentleman from 
Massachusetts, Congressman Lynch.
    Mr. Lynch. Thank you, Madam Chairwoman. I appreciate that. 
And I thank Ranking Member Wagner, as well. I really do 
appreciate you pulling this hearing together.
    I want to thank the staff for their work, both the Minority 
and Majority staffs, for putting together this panel of 
excellent witnesses.
    I am a firm believer that transparency itself can have a 
really profound and positive impact on the way people behave. 
If you know someone is looking over your shoulder and is going 
to review your decisions, I think that will help a lot.
    I know that all of the witnesses have worked on this issue 
for some time. Dr. Chamberlain, I know you have done a lot of 
research with Glassdoor, and I know that Director Raghu with 
the National Women's Law Center has, as well. I wanted to ask 
you if there are examples that you have seen, even from another 
country, examples that we could use in putting a plan together 
to actually correct this situation. We all want to get there, 
but what we are lacking really is a plan that can be 
accomplished legislatively, as well as, as the Chair mentioned, 
reputational pressure on these companies to do the right thing. 
But are there examples out there that you have come across that 
might inform our decision-making?
    Dr. Chamberlain?
    Mr. Chamberlain. Thank you for the question, Congressman. 
Yes. Any long-term solution to the pay gap has to address 
transparency and compensation equity. But as I mentioned in my 
testimony, one of the other serious issues we have to deal with 
is occupational sorting, which is something some of the other 
panelists have talked about today, the fact that men and women 
tend to major in different majors in college, which puts them 
on different tracks in the labor market and they end up in 
different jobs.
    The solution really has to address both of those things. I 
have not seen any one policy that specifically addresses all of 
them, but what I am trying to encourage today is what my 
research shows, that you have to address them together because 
they work in tandem.
    I will say that we have looked internationally. We do see 
smaller gender pay gaps. Just to take one example, in some 
countries--for example, Singapore has a much lower pay gap than 
the United States, and so does France, and one of the reasons 
is they actively support gender-neutral parental leave. They 
offer incentives for companies to give flexible work 
arrangements. Those are some lessons we can learn. Thank you.
    Mr. Lynch. That is great, very helpful.
    Director Raghu, is there anything you have seen that might 
help us deal with this problem here in the United States?
    Ms. Raghu. Thank you, Congressman. Yes. We can look to 
examples from what States and other countries have been doing 
in terms of implementing requirements for companies to conduct 
pay analyses, and then in some cases, also creating a sort of 
public disclosure requirement.
    One example that I will highlight right now is the example 
of the U.K., which a few years ago instituted a requirement for 
large companies to collect and report compensation metrics--
this is only gender--to a government agency. But what was new 
is that they also included a requirement for companies to take 
some of those ratios and post them on their websites so that 
they were available to the public.
    What that led the companies to do is then to also submit a 
report on their website that attempted to give context to those 
numbers and how they got there, and also to devise plans to 
address any gender wage gaps that were revealed.
    And the other thing that I thought was important about 
those disclosure requirements is it wasn't just about the rate 
of pay. As has been said before, compensation has many 
different parts. So, it also required some reporting about the 
ratio of bonuses between men and women, male and female 
employees who received bonus pay; and also, importantly, 
looking at the distribution of men and women in four different 
salary bands to get a sense of, were women concentrated in 
lower-paying jobs and men in higher-paying jobs?
    I think all of that information is critical to unpacking 
some of the problems and addressing gender and racial wage 
gaps.
    Mr. Lynch. That is great. Thank you.
    Ms. Dickens, I know your organization as well has been 
doing a lot of the same work. Any recommendations that you 
might offer to us?
    Ms. Dickens. I am going to recommend that we focus more on 
our people managers. Today, your individual contributor, 
tomorrow, your manager. We need to train people in how to make 
sure they understand compensation, how to identify pay 
inequities, how to create professional development 
opportunities and stretch assignments for their employees. So I 
think focusing on people managers more readily would be 
important.
    Mr. Lynch. Thank you, Madam Chairwoman.
    Chairwoman Beatty. Thank you so much.
    I now recognize the distinguished gentleman from the great 
State of Ohio, Congressman Gonzalez, for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Chairwoman Beatty. And 
thank you, Ranking Member Wagner, and our panel today.
    This pandemic has highlighted many of the challenges that 
we are talking about, unquestionably. I always say that the 
pandemic has been very difficult on pretty much everyone, but 
it has been particularly difficult on women and minorities in 
my district and across the country. So I am grateful that we 
are having this hearing, and I want to start my questions with 
Ms. Franklin-Davis.
    In 2019, as you may be aware, Google, in the course of 
their workforce study, found that they were actually 
underpaying men relative to women, and then they corrected it. 
It sounds like they do this every year--in years when women are 
getting more, they correct it, and when men are getting more, 
they correct it, and they normalize going forward as sort of a 
best practice. Do I have that right?
    And second, if that is true, what can we learn? Because it 
sounds like they may be doing this better than most, in 
particular in the technology space. So, what should we learn? 
What takeaway should we take from that? Maybe you have a 
different take on the data, but that was something I was just 
reading. I will turn it over to you.
    Ms. Franklin-Davis. Thank you for the question, 
Congressman. Yes, it is becoming more common practice in the 
tech space for there to be that internal audit of how both men 
and women are being paid and to make that adjustment where 
necessary. It is also starting to be more of a common practice 
for the pay scales for the job ranges to be publicized, at 
least within the organization. So, that should help employees 
know where they stand for their specific position.
    Mr. Gonzalez of Ohio. It is sort of a transparency thing 
for the employees, and then an intentionality on the part of 
the company, is that the right way to think about it?
    Ms. Franklin-Davis. Yes.
    Mr. Gonzalez of Ohio. Great. And in a prior life, I ran a 
small tech company, one that probably nobody here has ever 
heard of, but a very good one, with two female co-founders, and 
we had a lot of conversations about some of these issues 
specifically. And what they always said--they were women of 
color--was that there are cultural issues, there is the lack of 
intentionality, there is the awareness gap, and then there is 
just open discrimination, in particular when they are going out 
to pitch about getting funding for the company.
    When you look at the tech industry, where do you think we 
have the biggest gap, and where should we be focused in terms 
of making technology a more inclusive environment?
    Ms. Franklin-Davis. There are a lot of places that we need 
to focus on, specific to the tech industry. Recruiting and 
retention should be two sides of the same coin, as mentioned 
earlier. It is not enough to just recruit diverse people, women 
and underrepresented parties, into the organization. You have 
the same number of people walking out what is called the back 
door. Focusing on how organizations can be inclusive and 
equitable, and that is in their recruiting, in their hiring, in 
how are they providing mentor sponsorships, special 
assignments, and being able to give those key programs that 
help, elevate those parties throughout their organization.
    I already mentioned that it is expensive to hire people 
over and over again, so retaining the members that you have, 
the employees that you have, will help with that, as well as 
increase the company's culture and that feeling of belonging 
inside the organization.
    Mr. Gonzalez of Ohio. Yes, thank you. That is very helpful. 
I share the concerns that many have voiced with respect to 
making it a more inclusive tech industry.
    Ms. Franklin-Davis, I love the quote behind you: ``She 
needed a hero, so that's what she became.'' I think that is 
awesome.
    But, in any event, Dr. Chamberlain, for my final question, 
in your testimony you spoke at length about much of the data 
surrounding the pay gap for not only gender but how it relates 
to ethnicities. Were there any specific professions or 
industries that had larger gaps in representation than others, 
and what are those industries?
    Mr. Chamberlain. Thank you for the question, Congressman. 
Yes. Our full study does show breakdowns by industry. We saw 
fairly large gaps in the retail industry, for example. Among 
jobs, we see some lower-paying roles such as chefs with very 
large pay gaps. So it varies a lot, and there is no one single 
explanation for what is behind the gaps. But we definitely do 
see huge differences among jobs and industries.
    Mr. Gonzalez of Ohio. Great. I would love to follow up--my 
time is up--to hear more about that specifically. Thank you.
    And I yield back.
    Chairwoman Beatty. I now recognize the distinguished 
gentlelady from Michigan, Congresswoman Tlaib.
    Ms. Tlaib. Thank you so much, Chairwoman Beatty, for 
holding this hearing on such an urgent and important topic for 
so many women in my community.
    I know research from the National Women's Law Center shows 
that while women make up just under half the workforce in the 
United States, they represent nearly two-thirds of the 
workforce in the 40 lowest-paying jobs. Most of them are 
working mothers and primary breadwinners of their families. 
Their work has gone unseen and undervalued for so long, and 
they have been hit the hardest during this pandemic.
    So, Ms. Raghu, one of the things I want to know is what 
more can employers and policymakers like ourselves do to 
support women through the pandemic and ensure that existing 
compensation gaps for women of color specifically are not 
exacerbated by the effects of the pandemic?
    Ms. Raghu. Thank you for the question, Congresswoman. I 
think some of the policy solutions can meet some of the issues 
that have already been raised today. As you noted, women are 
overrepresented in minimum wage jobs and jobs that pay the tip 
minimum wage. One of the issues with these jobs is not only the 
low wage but the fact that these jobs generally don't provide 
the important kinds of support that allow women of color who 
are in these jobs to be both the breadwinner and the caregiver. 
By that, I mean that these jobs generally don't provide access 
to paid sick days, to paid family and medical leave. Many of 
these jobs, particularly now, must be performed in person and 
cannot be performed remotely. Workers in those jobs often find 
it difficult to have access to affordable child and family 
care. Those jobs often don't have stable schedules, which can 
wreak havoc with caregiving arrangements.
    So, workers with caregiving responsibilities in these jobs 
are often placed in the very difficult position of choosing 
between caring for a loved one or going to work, and that is 
why you saw so many women, and particularly women of color, 
either cut back on their hours or leave the workforce 
altogether this year.
    If we are going to think about things that employers can 
do, I think it is extremely helpful to not only think about 
people who are in professional settings or white-collar jobs 
but to center our policy responses on women and people of color 
and people with disabilities in these jobs that have the fewest 
supports and are paying the lowest wages. And, as someone else 
has said today, the rising tide is going to lift all boats, and 
that includes--
    Ms. Tlaib. I agree. I have seen firsthand so many women 
with an education, for whom hard work alone has not been enough 
to climb above the poverty line. And I know a lot of that is 
directly related to the cost of raising a child in our country. 
It is among the highest in the world, and that is before you 
take into account the impact it has on women's wages and the 
gender pay gap. Some women take less demanding, less lucrative 
jobs just so they are able to raise their families. Others face 
explicit discrimination. I know that personally, I have, for 
being a mother in the workplace, receiving fewer 
responsibilities under the assumption that they will have 
babies and take time off. I was even asked in an interview 
whether I planned to be pregnant, which is illegal. But even 
among all of that, we continue to see us not addressing the 
cost of having a family.
    I want to open this up to all of the witnesses here. During 
the depths of last year's economic crisis, we found that 
women's participation in the workforce fell to levels not seen 
since the 1980s, and has rebounded lower than what we see among 
men. And even now, nearly 1.5 million mothers are still missing 
from the workplace.
    So again, I want to open it up, what policy steps should 
Congress take to make sure women do not pay a price in the 
workplace for choosing to raise a family?
    That is for anybody on the panel.
    Ms. Raghu. Congresswoman, thank you for the question. I 
will say that we talk a lot about workplace flexibility, and I 
think we have to get employers to think about a framework for 
allowing flexibility in the workplace, and Congress can help by 
putting together a framework without mandates, allowing for 
innovation so that it works within that particular industry, 
and that the owners and employers and employees can work 
together to meet the specific needs of that particular 
workplace.
    Aframework that is different, that can be used across the 
country by all industries and not subject to different State 
laws, would be really helpful in trying to address this issue.
    Ms. Tlaib. Thank you.
    Before I yield back, what has been completely frustrating 
is the fact that we have to force companies to do these things, 
we have to force certain sectors to do these things. But that 
is why I appreciate being part of this important subcommittee.
    Thank you, Madam Chairwoman.
    Chairwoman Beatty. Thank you very much.
    I am trying to see if Congressman Timmons is on.
    Mrs. Wagner. Madam Chairwoman, I don't think--he was having 
some slight issues, and I don't believe he is on just yet. So 
why don't you go on to your next witness, and we will see if 
Mr. Timmons is able to make it. Thank you.
    Chairwoman Beatty. Okay, thank you.
    I would now like to recognize the gentlelady from 
Pennsylvania, Congresswoman Dean, for 5 minutes.
    Ms. Dean. Thank you, Madam Chairwoman, and thank you for 
pulling together this important hearing with this set of 
terrific experts.
    I appreciate the chance to identify the problem and also 
talk about solutions. This week, I had the chance to 
participate in a briefing alongside Ms. Dickens as we discussed 
the ways the pandemic has impacted women in the workforce. I am 
happy to continue that conversation and hear how we can create 
a more equitable future for women and people of color and those 
who have been disabled, because they are disproportionately 
impacted, especially this past year.
    This week, maybe you all saw a report in the Washington 
Post announcing that 25 percent of women say they are fiscally 
worse off a year into this pandemic, compared with 18 percent 
of men. Most striking, 27 percent of non-White Americans say 
they are worse off, compared to 18 percent of White Americans.
    We also know the past year has been particularly hard on 
mothers and is often used to explain the number of women 
leaving the workforce. But we know that is not the case across-
the-board in this recession, or ``she-cession,'' as some call 
it.
    Ms. Dickens, at your briefing the other day you mentioned 
that women in the workplace are not a monolith and that we run 
into difficulties if we consider them so. It is not synonymous 
with motherhood or caregiving. What risks do we run when trying 
to explain the impact of the pandemic on women and the 
compensation gap through a singular lens instead of the many 
facets that contribute to pay disparity for women?
    Ms. Dickens. Congresswoman, thank you so much for the 
question. It was a great conversation. And thank you for 
acknowledging that we are not a monolith. We shared some data 
about mental health. There are women who are being triggered by 
this over-focus on just the motherhood aspect of women in the 
workplace. In addition, there are women who are sitting in 
workplaces as leaders who have been faced with trying to keep 
businesses afloat during this period, and who have been faced 
with caring for their parents and for their spouses during this 
period.
    So, we want to look at issues that will impact the most 
people, not just people who also happen to have the important 
duty of being mothers, but women who are in the workplace 
dealing with other issues that men deal with and that, again, 
when we talk about rising tides float all boats, if we think of 
all the issues that we can address related to women, everyone 
has a story, everyone needs empathy. We need to make sure that 
this is a person-to-person issue and not just put us all in one 
group.
    Again, I can just say that for HR professionals who have 
been so resilient, and on the frontlines of all the crises that 
have been happening over the last year, they are trying to make 
sure they are meeting the individual needs of their employees, 
and we should be thinking about this issue much bigger than 
just the issues related to those who are mothers, but also 
caregivers and supporters and leaders in the workplace. Thank 
you for the question.
    Ms. Dean. Thank you, Ms. Dickens.
    Dr. Chamberlain, you report that more than 50 percent of 
the overall U.S. gender pay gap is explained by occupational 
sorting and that any long-term solution to the gender pay gap 
must address this issue. You mention that starting right after 
college, women and men with the same major will end up on 
different career tracks.
    I would like to examine even before college, maybe 
culturally, maybe in your town, maybe some of the occupational 
sorting that happens unintentionally, perhaps early on in 
girls' and women's lives. Can you expand on this gender-based 
job sorting, occupational sorting, a little more?
    Mr. Chamberlain. Yes. Thank you for the question, 
Congresswoman. As we have discussed here, what happens in the 
education system, particularly in colleges, has a big impact on 
the pay gap because men and women sort into different majors, 
and that puts them in different jobs.
    But as you mentioned, many of these trends start long 
before. There is a gendered component to many jobs. Even within 
my own family, boys and girls in my household ended up in 
different types of roles, with clear gender stamps on them, and 
we are not even totally sure why. So, this is an extremely 
difficult problem to solve within individual families.
    The best thing you can do is you can ensure that when men 
and women show up in jobs, that they believe they will be 
treated fairly and they will not get the short end of the stick 
once they arrive. Solving compensation equity can also solve 
occupational sorting by creating a more fair tournament for men 
and women.
    Ms. Dean. Do you have any ideas on how we interrupt that 
behavior of occupational sorting earlier, before a person 
appears at the doorstep of an employer?
    Where do the minutes go? I yield back. Thank you, Madam 
Chairwoman.
    Chairwoman Beatty. Thank you so much.
    I now have the honor to recognize the distinguished 
gentlelady from Texas, Congresswoman Garcia, for 5 minutes.
    Ms. Garcia of Texas. Thank you, Madam Chairwoman. And 
again, thank you for bringing this panel together and focusing 
on an issue that has been in the forefront of many of our minds 
since many of us have lived and breathed and fought it.
    Pay equity is an issue that should take priority for all of 
us. Equal pay means equal access to building wealth for future 
generations.
    The pay gap has been researched and proven, and I 
appreciate all of the documentation that our witnesses 
presented with their testimony, but it definitely does show 
that pay disparities are especially harmful to Black and Latina 
women.
    This issue transcends party lines because it affects 
individuals across every industry and geography, in every 
region of our country. Unjustified pay gaps hurt women, LGBTQ+ 
and non-binary individuals, and everyone at all different 
levels of experience. As a result, it hurts the families they 
support and the children they provide for.
    I want to start with you, Dr. Chamberlain. I know we have 
all talked about transparency and how that would have a 
positive impact in closing the pay gap. But it seems to me that 
we can do that, at least with some of these SEC filings. I know 
that has been a proposal. What other ways could we make things 
more transparent beyond people who can do the corporate 
filings? Because many of the essential workers--many Latinas 
and African-American women work. They may not have access to 
that, and their employers do not make those kinds of filings. 
So where else could we look at to make more companies more 
transparent?
    Mr. Chamberlain. Thank you for the question, Congresswoman. 
This is very important. Transparency does play a critical role 
in closing the compensation gap, and for years information has 
been almost impossible to find for workers. Our business at 
Glassdoor is basically built on this idea that we can make 
transparency available on an app on people's phones by 
encouraging people to anonymously share what they earn and then 
allowing them to read what others earn.
    I believe using crowdsourced information like that can 
powerfully correct the biases, and we do have some research 
showing that. We have shown that people, when we give pay 
information to workers, later on, they report higher 
compensation. They have actually used that information to 
negotiate and close gaps for themselves. So this is in advance 
of any kind of legal argument or argument about pay inequity 
that can close it up-front with negotiation.
    Ms. Garcia of Texas. Okay. Thank you.
    Ms. Raghu, I have a question for you in terms of the 
research you have done at the Center. My frustration has always 
been that a lot of women in my district, which is 77 percent 
Latina, working-class people who have maybe an 8th grade 
education, the jobs they get are very different maybe than some 
of the jobs you have been talking about and that you all have 
been studying. You are talking about bonuses and commissions 
and stock options. These folks just want to get paid because 
they face wage theft, they face people not paying them or 
trying to pay them cash because they don't want to deal with 
paying for fees and taxes and things that they may owe the 
Federal or State Government.
    What studies have you seen that have really looked at 
those, and again to try to make the inequities there more 
transparent? And what can we do to make sure that when we talk 
about pay equity and equal pay, that it is really about 
everybody, from the poor woman who is working at a nursing home 
to the owner of the nursing home?
    Ms. Raghu. Thank you, Congresswoman, and thank you for 
bringing up the issue that frequently pay equity conversations 
are not always centered on people in different types of jobs 
and people in the lowest-paying jobs and the circumstances that 
can make it difficult for them to uncover and go to their 
employer and ask about pay disparities.
    I think there are a lot of different peripheral issues that 
play in, some of which we have already discussed here. There 
are cultural and historical assumptions that underlie what kind 
of work women should be doing, how it should be valued, what is 
appropriate, and particularly the work of women of color.
    I think enforcement of our existing laws around wage theft 
or wage and hour laws is incredibly important, so making sure 
that our enforcement agencies are properly resourced to do 
that. There are also education campaigns for workers so that 
they know wage theft is wrong and that they are provided with 
the tools to contest that.
    Ms. Garcia of Texas. Madam Chairwoman, we are out of time. 
Can we let her finish?
    Chairwoman Beatty. I will yield for her to finish that 
quickly.
    Ms. Garcia of Texas. Thank you, ma'am.
    Ms. Raghu. And I am happy to follow up in writing for the 
record. What I will say quickly is in the Obama Administration, 
there was an effort to provide more paycheck transparency for 
workers in low-wage jobs who work for Federal contractors by 
letting them know what their wages were supposed to be by 
printing it in material that they received, so they would know 
if they were being subject to wage theft.
    Ms. Garcia of Texas. Thank you.
    Madam Chairwoman, I yield back.
    Chairwoman Beatty. Thank you very much, and thank you for 
that. Certainly, if you want to follow up with more data, we 
will get it to all of the Members.
    Ms. Garcia of Texas. Thank you.
    Chairwoman Beatty. Ranking Member Wagner, is Congressman 
Timmons on? I got a note that he is with us.
    Mrs. Wagner. He made it. He is next. Thank you, Madam 
Chairwoman.
    Chairwoman Beatty. I am glad to see him on the screen. So, 
it is my honor to recognize the distinguished gentleman from 
South Carolina, Congressman Timmons.
    Mr. Timmons. Thank you, Madam Chairwoman. I am very 
fortunate that I made it. My flight was delayed, and I 
literally just got home. So, I appreciate that I am getting the 
opportunity to be a part of this.
    I just want to begin by saying I think it is helpful to 
just acknowledge the reality that we still have a lot of work 
to do in order to close the gender and race wealth gap. As of 
2018, women's wages were 85 percent of men's. Men on average 
have 3 times the retirement savings that women do. Women make 
up 63 percent of minimum wage jobs but only 5 percent of 
Fortune 500 CEO jobs.
    White families on average have 41 times the wealth of Black 
families, and 22 times the wealth of Latino families. And to 
make matters worse, family wealth for Latinos and Black people 
has been stagnant since the 1990s.
    These are all facts that need to be addressed, and I am 
willing to work with my colleagues on both sides of the aisle 
to do so.
    But I also think it is worth noting the two different 
visions that were on display just last night. We heard from 
President Biden--I was there in the House Chamber--that the way 
to solve all of our problems is to essentially throw money at 
them. In other words, no matter the problem, we can tax and 
spend our way out of it. I was not impressed or inspired by 
this approach.
    Shortly thereafter, we heard from one of my Senators, 
someone who has experienced true poverty and climbed the 
economic success ladder and who, more than anyone I know, 
personifies the American Dream. I just want to share a few of 
the quotes he had from last night.
    He said, ``The beauty of the American Dream is that 
families get to define it for themselves. We should be 
expanding options and opportunities for all families, not 
throwing money at certain issues because my colleagues across 
the aisle think that they know best.''
    Two speeches, two ways forward: tax and spend; versus 
educational empowerment and economic opportunity.
    Another thing he said was, ``Education is the closest thing 
that we have to magic.''
    Again, it seems obvious to me which approach will work.
    Unfortunately, COVID has only exacerbated these very 
problems. Minority workers and women have paid the price more 
than anyone for the needless and seemingly unending school 
closures and Draconian economic restrictions in certain States.
    I have a question for Ms. Franklin-Davis. As many 
businesses shut down, women either left or lost their jobs at a 
rate 4 times as high as men either because they worked in 
customer-facing industries which closed due to COVID or because 
they needed to care for children and family members during 
quarantine. I expect this fact will only exacerbate the wage 
and wealth gap.
    As we re-open our economy, how can we ensure that women who 
held high-skilled jobs are able to return to those jobs? And 
even for those who are not in high-skilled jobs, how can we 
ensure that they do not lag behind their peers upon re-entry?
    Ms. Franklin-Davis. Thank you for that question, 
Congressman. I think what we are seeing is key and top 
organizations are looking at ways that--they recognize the 
``she-cession'' that we keep talking about and referring to and 
want to find a way to--want to reskill and upskill workers so 
that they can: one, have access to higher-paying jobs; and two, 
be able to have women specifically be able to re-enter.
    That means that we need to think outside the box with 
regard to the gaps that may be in timelines of resumes. That 
means how do we look at the skills that people have and know 
that the specific description for the job that they are 
applying to, how the skills on their resume can translate or 
transcend into what the job is actually requiring and more than 
what it is asking for?
    Mr. Timmons. Sure, I appreciate that. I just want to 
reiterate to my colleagues on both sides of the aisle that this 
is a problem that is only going to get worse with every passing 
day and week. Last night, I was at the joint address, and we 
were in a room where everyone who wanted a vaccine has been 
able to get one, and I would bet 80 to 90 percent of the room 
has received one, and yet we were forced to wear not only 
masks, but KN95 masks.
    We have to get back open. I know that every American who 
wants a vaccine has had at least a week or two, and maybe we 
give them another week or two, but once everyone who wants a 
vaccine has gotten one, we have to get back to work. We can 
take precautions to protect those who are most vulnerable, the 
older and people who have health issues. But everyone else has 
to get back to work because these challenges that we have been 
talking about are only going to get worse the longer we stay 
closed.
    And with that, Madam Chairwoman, I yield back. Thank you.
    Chairwoman Beatty. Thank you so much.
    I now recognize the distinguished gentleman from 
Massachusetts, Congressman Auchincloss.
    Mr. Auchincloss. Thank you, Madam Chairwoman. I appreciate 
this panel. It has been a good discussion.
    I am the father of a 1-year-old, and we have another one on 
the way, due in August. My wife works long hours. So, this is 
an issue that is near and dear to me, and absolutely to my 
constituents as well in Massachusetts, and that is about paid 
family and medical leave and its effect on parents, and moms in 
particular.
    For Ms. Franklin-Davis, and also Ms. Dickens, what would be 
the effect of incorporating what President Biden called for 
last night in his American Families Plan, for national paid 
family and medical leave, on the ability of working moms to 
close the gender wage gap?
    Ms. Franklin-Davis. I can start. The ability of a person, 
not just a woman, to be able to care not just for children but 
aging parents, do her job, do it well, and still live life is 
absolutely necessary. I too have two amazing little people and 
have the ability to work, as well as be able to think of and 
look after the needs of my parents, and without that ability, I 
would not be able to sit here today comfortably and have this 
conversation with you, like so many others across the country.
    Ms. Dickens. Congressman, thank you for the question. As I 
mentioned earlier, we are in support of some Federal framework 
that allows for paid family leave. We think that flexibility is 
so important in the workplace. But as I mentioned earlier too, 
60 percent of our members represent small and medium-sized 
businesses, and the needs of a very small business and their 
ability to cover the cost or to fill in, to have other people 
hired in their place, there are just different instances and 
issues that business owner has to think about, as opposed to a 
medium-sized or very large business.
    So a framework to get us all started, and a Federal 
framework at that, will allow for innovation and for the 
business and employees who work for them to find the best 
solution for their immediate needs.
    Mr. Auchincloss. And I think Federal support for paid 
family and medical leave is appropriate for exactly that 
reason. It is not just businesses that benefit. It is not just 
the individual parents who benefit from that flexibility. It is 
society at large that is having our kids raised in healthier 
environments, and it is giving moms and dads the opportunity 
early on to care for their new family members.
    This is an issue that increasingly, the business community 
is rallying behind. In my home State of Massachusetts, the 
Massachusetts Business Coalition for Early Childhood Education 
has formed because they recognize the importance of early 
education and child care for their own workforce.
    What are some policies that businesses should prioritize to 
ensure pay equity among their workforce, in addition to early 
education for 3- and 4-year-olds?
    Ms. Dickens, that is for you again.
    Ms. Dickens. Okay. I'm sorry.
    Mr. Auchincloss. My apologies.
    Ms. Dickens. No, that is okay. Can you repeat that? I'm 
sorry. I was trying to write it down while you were speaking.
    Mr. Auchincloss. In addition to advocating for early 
education, which is a major consideration for businesses in my 
home State of Massachusetts, what are some other policies that 
they could prioritize which would ensure pay equity amongst 
their workforce? In the business community, not in the 
government.
    Ms. Dickens. Reskilling and upskilling is something that we 
are laser focused on right now. We all know that the world and 
the demands and the needs of the market can change in a blink. 
We saw this happen last March. We need businesses and the 
government to focus on ways to quickly get people educated on 
what is new and what skills and talents they need there. There 
are businesses that provide professional development and on-
site training, but we need a bigger focus on getting people to 
think earlier about how they can upskill. If you are in a place 
and you are able to get additional skills that can get you to 
another level to be compensated at that level, I think that can 
address the issue. So, a laser focus now on reskilling and 
upskilling would be so crucial.
    Mr. Auchincloss. I agree with you. Again, in Massachusetts, 
a great example of this is in clear impact funds, and 
increasingly, we are seeing non-profit entities upskill and 
reskill blue-collar and white-collar professions, and doing so 
with both State support and business support, and I hope to see 
those synergies accelerate over the next 10 years because it is 
an investment that has started to really work here in the 
Commonwealth.
    Madam Chairwoman, I yield back.
    Chairwoman Beatty. Thank you so much.
    I would like to thank all of our witnesses for their 
testimony today.
    Without objection, I would like to enter statements into 
the record from the National Asian Pacific American Women's 
Forum, UnidosUS, and Public Citizen.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    The hearing is now adjourned. And thank you.
    [Whereupon, at 1:34 p.m., the hearing was adjourned.]

                            A P P E N D I X


                             April 29, 2021
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             
</pre></body></html>
